No. 19-107
IN THE SUPREME COURT OF THE UNITED STATES
VINCENT ASARO, PETITIONER
V.

UNITED STATES OF AMERICA

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION, via e-mail and first-class mail,
postage prepaid, this 12th day of November 2019.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 4,011 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
November 12, 2019

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
November 12, 2019
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin's phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0107
ASARO, VINCENT
USA

LISA S. BLATT
WILLIAMS & CONNOLLY LLP
725 TWELFTH STREET, N.W.
WASHINGTON, DC 20005
202-434-5000
LBLATT@WC.COM
NATALIE D. CAMASTRA
O'MELVENY & MYERS LLP
400 SOUTH HOPE STREET
18TH FLOOR
LOS ANGELES, CA 9007 1-2899
213-430-8060
NCAMASTRA@OMM.COM
RICHARD M. LANGONE
LANGONE & ASSOCIATES, PLLC
300 OLD COUNTRY ROAD
SUITE 341
M1NEOLA,NY 11501
ANTON METLITSKY
O'MELVENY & MYERS LLP
TIMES SQUARE TOWER
7 TIMES SQUARE
NEW YORK, NY 10030
212-326-2000
AMETLITSKY@MM.COM

SHANA-TARA O'TOOLE
DUE PROCESS INSTITUTE
700 PENNSYLVANIA AVENUE, SE
SUITE 560
WASHINGTON, DC 20003
202-558-6680
SHANA@IDUEPROCESS.ORG
JAY R. SCHWEIKERT
CATO INSTITUTE
1000 MASSACHUSETTA AVE., NW
WASHINGTON, DC 20001
202-842-0200
JSCHWEIKERT@CATO.ORG

